=
I

C@OCKLE

2311 Douglas Street ] . E-Mail Address:
a Tl
Omaha, Nebraska 68102-1214 Le 8 B E tels contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-1010

ACTAVIS HOLDCO, INC., et al.,
Petitioners,

v.
STATE OF CONNECTICUT, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 16th day of March, 2020, send out
from Omaha, NE 6 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE DRI—THE VOICE OF THE
DEFENSE BAR IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
PHILIP L. WILLMAN SCOTT BURNETT SMITH
PRESIDENT OF DRI—THE VOICE Counsel of Record
OF THE DEFENSE BAR BRADLEY ARANT BOULT CUMMINGS LLP
BROWN & JAMES PC 200 Clinton Avenue West
800 Market Street Suite 900
Suite 1100 Huntsville, AL 35801
St. Louis, MO 63101 (256) 517-5100
(314) 421-3400 ssmith@bradley.com

pwillman@bjpc.com
CAROLINE D. SPORE
Counsel for Amicus Curiae BRADLEY ARANT BOULT CUMMINGS LLP
1600 Division Street
Suite 700
Nashville, TN 37203

Subscribed and sworn to before me this 16th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary i ,
State of Nebraska ; Loe Qudeaw- ;
My Commission Expires Nov 24, 2020 «

Notary Public Affiant 39618

 

 

 
Service List

Steffen Nathanael Johnson (Counsel of Record for Petitioners)

 

Address: Wilson Sonsini Goodrich & Rosati
1700 K Street, NW, Fifth Floor
Washington, DC 20006

Email: sjohnson@wsgr.com
Phone: 202-973-8888

Clare Elmendorf Kindall (Counsel of Record for Respondents and Liaison Counsel for Plaintiff
States)

Address: Office of the Attorney General

165 Capitol Avenue

Hartford, CT 06106
Email: Clare.Kindall@ct.gov
Phone: 860-808-5261

Dianne M. Nast (Lead Counsel for the Direct Purchaser Plaintiffs)

Address: NastLaw LLC
1101 Market Street, Suite 2801
Philadelphia, PA 19107

Email: dnast@nastlaw.com
Phone: 215-923-9300
Roberta D. Liebenberg (Lead Counsel for the End-Payer Plaintiffs)

Address: Fine, Kaplan and Black, R.P.C.
One South Broad Street, 23rd Floor
Philadelphia, PA 19107

Email: rliebenberg@finekaplan.com
Phone: 215-567-6565
Jonathan W. Cuneo (Lead Counsel for the Indirect Reseller Plaintiffs)

Address: Cuneo, Gilbert & Laduca LLP
4725 Wisconsin Avenue, N.W., Suite 200
Washington, DC 20016

Email: jonc@cuneolaw.com

Phone: 202-789-3960
William J. Blechman (Lead Counsel for the Kroger Direct Action Plaintiffs and Liaison
Counsel for DAPs)

 

Address: Kenny Nachwalter P.A.
1441 Brickell Avenue, Suite 1100
Miami, FL 33131

Email: whblechman@knpa.com
Phone: 305-373-1000
